No. 19-247

IN THE

Supreme Court of the United States
CITY OF BOISE, IDAHO,
Petitioner,
vs.
ROBERT MARTIN, et al.,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF THE PETITION FOR
WRIT OF CERTIORARI

KENT S. SCHEIDEGGER
Counsel of Record
KYMBERLEE C. STAPLETON
Criminal Justice Legal Fdn.
2131 L Street
Sacramento, CA 95816
(916) 446-0345
briefs@cjlf.org
Attorneys for Amicus Curiae
Criminal Justice Legal Foundation

QUESTIONS PRESENTED
1. Does the enforcement of generally applicable laws
against camping on public property violate the Cruel
and Unusual Punishments Clause when applied to
persons who have no permanent residence and cannot
obtain space in a shelter but who have made no further
showing of necessity?
2. Does the Cruel and Unusual Punishments Clause
of the Eighth Amendment apply to the issuance of
citations by police, or is it limited to punishments
imposed after conviction of a crime?
3. Does a federal court properly proceed to the
merits of Question 1 when the state appellate courts
have not had an opportunity to determine how to apply
state-law defenses to this situation, which may obviate
the constitutional question?
4. Does a single-Justice concurring opinion in this
Court combined with a four-Justice dissent in the same
case form a precedent, binding on all the courts of the
Nation, in cases presenting facts distinguishable from
those that were before this Court in that case?

(i)

TABLE OF CONTENTS
Questions presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . v
Interest of amicus curiae. . . . . . . . . . . . . . . . . . . . . . . 1
Summary of facts and case.. . . . . . . . . . . . . . . . . . . . . 2
Summary of argument. . . . . . . . . . . . . . . . . . . . . . . . . 3
Argument. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I
Disputes over the substantive definition of crimes
and defenses should not be shoehorned into the
Eighth Amendment.. . . . . . . . . . . . . . . . . . . . . . . . . 5
A. The original understanding.. . . . . . . . . . . . . . 6
B. The Robinson anomaly and the
Powell retrenchment.. . . . . . . . . . . . . . . . . . . 8
C. Vagrancy laws.. . . . . . . . . . . . . . . . . . . . . . . . 10
II
The Court of Appeals violated principles of judicial
restraint and federalism by deciding a
constitutional question when state courts
might have applied state law to avoid it. . . . . . . . 12
A. The correct constitutional question. . . . . . . 13
B. Federalism and untested state and
local laws. . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

(iii)

iv

III
This case provides a much-needed opportunity to
clarify the confusing “narrowest grounds” rule
of Marks v. United States. . . . . . . . . . . . . . . . . . . . 19
Conclusion.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

v

TABLE OF AUTHORITIES
Cases
Arizonans for Official English v. Arizona,
520 U. S. 43 (1997). . . . . . . . . . . . . . . . . . . 12, 14, 18
Cook v. Moffat, 46 U. S. (5 How.) 295 (1847). . . . . . 20
Expressions Hair Design v. Schneiderman, 581 U. S.
__, 137 S. Ct. 1144, 197 L. Ed. 2d 442 (2017). . . . 18
Genesis HealthCare Corp. v. Symczyk,
569 U. S. 66 (2013). . . . . . . . . . . . . . . . . . . . . . . . . . 8
Graham v. Connor, 490 U. S. 386 (1989). . . . . . . . . 14
Grutter v. Bollinger, 539 U. S. 306 (2003). . . . . 20, 21
Harmelin v. Michigan, 501 U. S. 957 (1991). . . . . 5, 7
Hughes v. United States, 584 U. S. __,
138 S. Ct. 1765, 201 L. Ed. 2d 72 (2018). . . . . . . . 20
Hutto v. Davis, 454 U. S. 370 (1982). . . . . . . . . . . . . 20
Illinois v. Gates, 462 U. S. 213 (1983).. . . . . . . . . . . 19
In re Newbern, 53 Cal. 2d 786, 350 P. 2d 116
(1960). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Ingraham v. Wright, 430 U. S. 651 (1977). . . . . . . . 13
Kansas v. Carr, 577 U. S. __, 136 S. Ct. 633,
193 L. Ed. 2d 535 (2016).. . . . . . . . . . . . . . . . . . . . . 5
Kennedy v. Mendoza-Martinez, 372 U. S. 144
(1963). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Kingsley v. Hendrickson, 576 U. S. __,
135 S. Ct. 2466, 192 L. Ed. 2d 416 (2015). . . . . . . 14

vi

Marks v. United States, 430 U. S. 188 (1977).. . . . . 20
Nichols v. United States, 511 U. S. 738 (1994).. . . . 20
Papachristou v. Jacksonville, 405 U. S. 156
(1972). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Powell v. Texas, 392 U. S. 514 (1968). . . . . 3, 6, 10, 19
Railroad Comm’n of Texas v. Pullman Co.,
312 U. S. 496 (1941). . . . . . . . . . . . . . . . . . . . . . . . 17
Robinson v. California, 370 U. S. 660
(1962). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 6, 8, 9, 10
Robinson v. California, 371 U. S. 905 (1962). . . . . . . 8
State v. Hastings, 118 Idaho 854, 801 P. 2d 563
(1990). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
State v. Meyer, 161 Idaho 631, 389 P. 3d 176
(2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16
Timbs v. Indiana, 586 U. S. __, 139 S. Ct. 682,
203 L. Ed. 2d 11 (2019). . . . . . . . . . . . . . . . . . . . . . . 9
Tobe v. City of Santa Ana, 9 Cal. 4th 1069,
892 P. 2d 1145 (1995). . . . . . . . . . . . . . . . . . . . . . . 16
Trop v. Dulles, 356 U. S. 86 (1958). . . . . . . . . . . . . . 13
United States v. Lovett, 328 U. S. 303 (1946). . . . . . 13
United States v. Stevens, 559 U. S. 460 (2010).. . . . . 9
Whitley v. Albers, 475 U. S. 312 (1986). . . . . . . . . . . 14

vii

Rules of Court
Idaho Crim. Rule 54(a)(1)(A).. . . . . . . . . . . . . . . . . . 17
Idaho Rule App. 11(c)(10). . . . . . . . . . . . . . . . . . . . . 17
Idaho Rule App. 108. . . . . . . . . . . . . . . . . . . . . . . . . . 17
Idaho Rule App. 118. . . . . . . . . . . . . . . . . . . . . . . . . . 17
State Statutes and Local Ordinances
Boise City Code § 5-2-3(A)(1). . . . . . . . . . . . . . . . . . . 12
Cal. Penal Code § 647(e).. . . . . . . . . . . . . . . . . . . . . . 11
Cal. Stats. 1961, ch. 560, § 2.. . . . . . . . . . . . . . . . . . . 11
Secondary Authorities
1 Annals of Cong. 448-449 (1789). . . . . . . . . . . . . . . . 7
Blackstone, W., Commentaries (1st ed. 1769). . . . . . 6
Elliot, J., The Debates in the Several State
Conventions on the Adoption of the Federal
Constitution (2d ed. 1836). . . . . . . . . . . . . . . . . . 7, 8
Fallon, R., Manning, J., Meltzer, D., & Shapiro, D.,
The Federal Courts and the Federal System
(6th ed. 2009).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Gardner, Rethinking Robinson v. California in the
Wake of Jones v. Los Angeles: Avoiding the “Demise
of the Criminal Law” by Attending to
“Punishment,” 98 J. Crim. L. & Criminology 429
(2008). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9, 10

viii

Granucci, “Nor Cruel and Unusual Punishments
Inflicted:” The Original Meaning,
57 Cal. L. Rev. 839 (1969).. . . . . . . . . . . . . . . . 5, 6, 7
LaFave, W., Israel, J., King, N., & Kerr, O.,
Criminal Procedure (4th ed. 2015).. . . . . . . . . . . . . 5
Scheidegger, Tinkering with the Machinery of Death:
Lessons from a Failure of Judicial Activism,
17 Ohio St. J. Crim. L. __ (forthcoming), online at
https://papers.ssrn.com/sol3/papers.cfm?
abstract_id=3453350. . . . . . . . . . . . . . . . . . . . . . . . 5
Sherry, Vagrants, Rogues and Vagabonds–Old
Concepts in Need of Revision,
48 Cal. L. Rev. 557 (1960).. . . . . . . . . . . . . . . . 11, 12
Stinneford, The Original Meaning of “Unusual”:
The Eighth Amendment as a Bar to Cruel
Innovation, 102 Nw. U. L. Rev. 1739
(2008).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 7
Story, J., Commentaries on the Constitution of the
United States (abridged ed. 1833). . . . . . . . . . . . . 21

IN THE

Supreme Court of the United States
CITY OF BOISE, IDAHO,
Petitioner,
vs.
ROBERT MARTIN, et al.,
Respondent.
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF THE PETITION FOR
WRIT OF CERTIORARI

INTEREST OF AMICUS CURIAE
The Criminal Justice Legal Foundation (CJLF)1 is a
non-profit California corporation organized to participate in litigation relating to the criminal justice system
as it affects the public interest. CJLF seeks to bring the
constitutional protection of the accused into balance
with the rights of the victim and of society to rapid,
efficient, and reliable determination of guilt and swift
execution of punishment.

1. Both parties have filed blanket consents for amicus briefs.
Counsel of record for all parties received notice at least 10 days
prior to the due date of CJLF’s intention to file this brief.
No counsel for a party authored this brief in whole or in part.
No person or party other than amicus curiae CJLF made a
monetary contribution to its preparation or submission.

2

This case involves an injunction against enforcement of an ordinance needed to maintain public order.
It was patterned on a section of a law drafted to replace
the old vagrancy laws with a constitutional alternative,
a law widely copied throughout the country. The
disorder that follows when police are not allowed to
enforce such laws ultimately leads to more serious
crime. This breakdown in society is contrary to the
interests of victims of crime and the law-abiding public
that CJLF was formed to protect.
SUMMARY OF FACTS AND CASE
The City of Boise, Idaho, like many jurisdictions
throughout the country, has ordinances that prohibit
camping on public property. See Pet. for Cert. 6. Six
plaintiffs who are or have been homeless brought suit
in Federal District Court claiming that application of
the ordinances to homeless people without access to
shelters violates the Eighth Amendment. See App. to
Pet. for Cert. 35a.
All six of the plaintiffs have been convicted at least
once of violating one or both of the ordinances. See id.,
at 40a. None of the plaintiffs appealed their convictions.
See id., at 54a. They evidently did not raise an Eighth
Amendment challenge as a defense in the trial court.
See id., at 91a.
After protracted litigation, by 2009 only two plaintiffs remained, and the two sides made cross motions
for summary judgment and dispositive relief. See id., at
69a-70a. The District Court granted the defendants’
motion and denied the plaintiffs’, terminating the case
in the defendants’ favor.
The Court of Appeals reversed the grant of defendants’ motion as to prospective relief and as to retro-

3

spective relief regarding citations that never culminated
in a criminal judgment. See id., at 65a.2 The court
interpreted Robinson v. California, 370 U. S. 660
(1962), and Powell v. Texas, 392 U. S. 514 (1968), as
establishing that, just as a person cannot be criminally
punished for his status, so he cannot be punished for
involuntary conduct which is inseparable from that
status. See App. to Pet. for Cert. 59a-62a. The Court of
Appeals further held that this prohibition is not limited
to punishment following conviction but extends to “the
initiation of the criminal process.” Id., at 56a. The
Court of Appeals denied rehearing en banc, id., at 2a,
six judges dissenting. Id., at 6a.
SUMMARY OF ARGUMENT
The Cruel and Unusual Punishments Clause is
directed only at the kinds and possibly the amounts of
punishment that can be imposed upon conviction of a
crime. As originally understood, it has nothing to do
with the legislature’s decision regarding the definition
of crimes, and it has nothing to do with the initiation of
criminal proceedings. Those limitations must be found
elsewhere in the Constitution. Robinson v. California
erred in placing its restriction under the Eighth Amendment, and while it need not be overruled it should not
be extended to new territory.
The old vagrancy laws did present constitutional
problems under other provisions, and disorderly conduct laws were drafted as reforms to eliminate those
problems. The Boise disorderly conduct law at issue in
this case is copied from a leading reform. It avoids the
old problem by focusing on conduct, not status.
2. The Court of Appeals affirmed as to retrospective relief
regarding judgments in completed cases. See ibid.

4

The Eighth Amendment applies only to punishment
imposed following conviction, not to any actions occurring pretrial, as indicated by multiple precedents of this
Court. The Court of Appeals’ holding to the contrary is
clear error.
A federal court should not enjoin enforcement of a
state or local enactment as unconstitutional when
interpretation of it by state courts might avoid the
constitutional problem. There are two state-law defenses possible in this case: the state’s general necessity
defense and the ordinances’ built-in shelter availability
defense. The panel’s disagreement with how the police
interpret the latter defense in issuing citations is no
excuse for not allowing the state appellate courts to
interpret it first. Cases should be allowed to proceed
through the appeal process to obtain authoritative
interpretation of state and local law from state courts
before a federal court issues an injunction.
The disagreement between the panel and the
rehearing dissenters over the interpretation of Powell
v. Texas illustrates a major problem that only this
Court can resolve. The rule of Marks v. United States
on interpretation of precedents with no majority
opinion is unclear, causing confusion and wildly conflicting interpretations across many areas of law. This
Court has a responsibility to clarify how its precedents
are to be interpreted and applied. It fails in its central
mission when its precedents are so unclear that they
produce such broad conflict. The Court has passed on
multiple opportunities over many years to clarify the
Marks rule, but the issue should not be evaded any
longer.

5

ARGUMENT
I. Disputes over the substantive definition of
crimes and defenses should not be shoehorned
into the Eighth Amendment.
In Kansas v. Carr, 577 U. S. __, 136 S. Ct. 633, 644,
193 L. Ed. 2d 535, 546 (2016), the defendants complained that they had been tried jointly rather than
separately, a frequently occurring issue in criminal
procedure. See generally 5 W. LaFave, J. Israel,
N. King, & O. Kerr, Criminal Procedure § 17.2 (4th ed.
2015). Because it was a capital case, however, the
murderous brothers claimed a violation of the Eighth
Amendment. This Court declined to extend that provision into this new territory. “Whatever the merits of
defendants’ procedural objections, we will not shoehorn
them into the Eighth Amendment’s prohibition of
‘cruel and unusual punishments.’ ” Carr, 136 S. Ct., at
644, 193 L. Ed. 2d, at 547. The constitutional claim, if
they had one, came under due process. Id., 136 S. Ct., at
644-645, 193 L. Ed. 2d, at 547-548.
The same response is warranted here. The Eighth
Amendment provides, “nor [shall] cruel and unusual
punishments [be] inflicted.” Whatever debates may
rage over the original understanding of “cruel” and
“unusual,” see, e.g., Harmelin v. Michigan, 501 U. S.
957, 966-985 (1991) (opinion of Scalia, J.); id., at 10091011 (White, J., dissenting),3 the clause on its face

3. See generally Granucci, “Nor Cruel and Unusual Punishments
Inflicted:” The Original Meaning, 57 Cal. L. Rev. 839 (1969);
Stinneford, The Original Meaning of “Unusual”: The Eighth
Amendment as a Bar to Cruel Innovation, 102 Nw. U. L. Rev.
1739 (2008); Scheidegger, Tinkering with the Machinery of
Death: Lessons from a Failure of Judicial Activism, 17 Ohio
St. J. Crim. L. __ (forthcoming), online at https://papers.ssrn.
com/sol3/papers.cfm?abstract_id=3453350.

6

applies only to punishments, not convictions.4 See
Gardner, Rethinking Robinson v. California in the
Wake of Jones v. Los Angeles: Avoiding the “Demise of
the Criminal Law” by Attending to “Punishment,” 98
J. Crim. L. & Criminology 429, 476-477 (2008) (cited
below as “Gardner”).
Only once, in an era when the original understanding received less attention and commanded less respect
than it does now, has this Court found an Eighth
Amendment restraint on the legislative authority to
define the elements and defenses of substantive criminal law. That was in Robinson v. California, 370 U. S.
660 (1962), a decision that could have reached the same
result on different grounds. See Part I-B, infra, at 9-10.
That mistake should be limited to the narrow and rare
circumstances of the case, a pure “status” offense with
no actus reus. See Powell v. Texas, 392 U. S. 514, 544545 (1968) (Black, J., concurring). Robinson should
never be expanded.
A. The Original Understanding.
The essential outline of the history of the Cruel and
Unusual Punishments Clause is well known. The clause
was copied verbatim from the English Bill of Rights of
1689 to the Virginia Declaration of Rights of 1776 to
the Eighth Amendment to the United States Constitution. See Granucci, 57 Cal. L. Rev., at 840; Stinneford,
102 Nw. U. L. Rev., at 1748.
The English provision was enacted in response to
excesses during the reign of the then-recently overthrown King James II. See 4 W. Blackstone, Commentaries 372 (1st ed. 1769). The case of the “notorious

4. And most certainly not citations. See Part II-A, infra, at 13-14;
cf. App. to Pet. for Cert. 55a-56a.

7

perjurer” Titus Oates was especially prominent. See
Harmelin, 501 U. S., at 968-971; Granucci, supra, at
857-859. While there is room for disagreement as to
some aspects of this history, see Stinneford, supra, at
1762, n. 135 (disputing part of Granucci’s reading),
there can be no dispute that the definitions of crimes
played no part in the debate. For the Oates case,
particularly, no one could doubt that perjury was and
should be a serious crime. The dispute was all about
whether the punishment was legal for the crime and
supported by precedent, see Harmelin, at 971, or as
Stinneford contends, consistent with “long usage.” See
Stinneford, at 1763.
Even more pertinent to the American constitutional
question, though, are the debates on the ratification of
the Constitution. The Anti-Federalists complained that
it contained no bill of rights and noted the lack of a
“cruel and unusual” prohibition. The Bill of Rights was
adopted, in part, as a kind of national reconciliation
with those who had opposed the Constitution. See
1 Annals of Cong. 448-449 (1789) (statement of Rep.
Madison).
The strongest evidence of the nature of the AntiFederalists’ objection on this point is found in the
Massachusetts and Virginia Conventions. In Massachusetts, delegate Holmes complained that Congress was
“nowhere restrained from inventing the most cruel and
unheard-of punishments, and annexing them to crimes
....” 2 J. Elliot, The Debates in the Several State Conventions on the Adoption of the Federal Constitution
111 (2d ed. 1836). He was not concerned on this point
with the definition of federal crimes.
In Virginia, the fiery Patrick Henry expressly
focused on punishment and not on crimes. “In the
definition of crimes, I trust they will be directed by what
wise representatives ought to be governed by. But when

8

we come to punishments, no latitude ought to be left,
nor dependence put on the virtue of representatives.”
3 J. Elliot 447 (emphasis added). Without the equivalent of Virginia’s provision, he warned, Congress might
import the practices of continental Europe “in preference to that of the common law,” with “tortures, or
cruel and barbarous punishment.” See ibid. The distinction between the definitions of crimes and the punishments for them could hardly be stated any more clearly.
The authority to decide what is a crime and what is
not lies at the heart of the legislative power. The notion
that the Cruel and Unusual Punishments Clause
removed any part of that authority from the legislative
branch is contrary to both the plain language and the
unmistakable history of that provision.
B. The Robinson Anomaly and the Powell Retrenchment.
Robinson v. California, 370 U. S. 660 (1962), was an
odd case in many ways. Unknown to this Court, the
case had been moot the whole time the Court was
considering the merits; Robinson had died the previous
summer. See Robinson v. California, 371 U. S. 905
(1962) (Clark, J., dissenting from denial of rehearing).5
Considered as a whole, the California statutory system
for drug abuse was “a comprehensive and enlightened
program” for its day. See Robinson, 370 U. S., at 679
(Clark, J., dissenting); id., at 687-688 (White, J., dissenting). It seems like a strange case to take up to make
the “status offense” point when there were much more
common status offense statutes in force throughout the
country: vagrancy laws. See Part I-C, infra.

5. Mootness defeats subject matter jurisdiction. See Genesis
HealthCare Corp. v. Symczyk, 569 U. S. 66, 78 (2013).

9

While proof of use was not strictly required for a
conviction, the Robinson Court had to stretch to
imagine a scenario where a person could be prosecuted
for being an addict without having violated the law
against illegal use. Perhaps an addict had just arrived
from out of state and not yet gotten his first in-state fix.
See Robinson, 370 U. S., at 667. This sounds more like
a hypothetical from a law school Socratic dialogue than
an inquiry into the actual workings of criminal justice.
There is no reason to believe that the facts of Robinson
bear any resemblance to this hypothetical. See id., at
681-682 (Clark, J., dissenting); id., at 686-688 (White,
J., dissenting). In effect, the Robinson Court declared
the statute unconstitutional on its face because it could
conceive of a hypothetical where it would be unconstitutional as applied, even though from the evidence it
appeared to be constitutionally applied to Robinson.
That is backwards under the approach developed in the
years since Robinson, at least outside the First Amendment context. See United States v. Stevens, 559 U. S.
460, 472-473 (2010).
The oddest aspect of all, though, was the Robinson
Court’s resort to the Cruel and Unusual Punishments
Clause to strike down a status offense. Justice White
called it “novel” and suggested that “the present
Court’s allergy to substantive due process” might be the
reason to resort to the Eighth Amendment. See Robinson, 370 U. S., at 689 (dissent); Gardner, supra, at 436,
482. Of course, many people believe that a revulsion for
substantive due process is not an allergy at all but the
jurisprudential immune system’s correct response to a
genuine, threatening infection. See, e.g., Timbs v.
Indiana, 586 U. S. __, 139 S. Ct. 682, 692, 203 L. Ed. 2d
11, 21-22 (2019) (Thomas, J., concurring in the judgment) (slip op., at 2-3). For those who share this view,
the Equal Protection Clause is a possible alternative
justification for the result in Robinson. An addict was

10

treated differently from a nonaddict under the 1962
California law for who he was and not for anything he
had been shown to have done. That might be a stretch,
but it would not be nearly as great a stretch as the one
the Robinson Court actually made.
Robinson might have signaled “ ‘the demise of the
criminal law,’ ” Gardner, at 430 (quoting Packer, Mens
Rea and the Supreme Court, 1962 Sup. Ct. Rev. 107,
147-148, n. 144 (1962)), but it did not. At least it hasn’t
yet. In Powell v. Texas, 392 U. S. 514, 533 (1968),
Justice Marshall, writing the plurality opinion, interpreted Robinson to bar only status crimes with no actus
reus, not reaching the mens rea question of how to treat
acts that are claimed to be involuntary. The perennial
question of how to interpret a decision with no majority
opinion is once again presented in this case with regard
to Powell, see Part III, infra, at 19-21, but courts other
than the Ninth Circuit have generally declined to
extend Robinson in the manner advocated by the
Powell dissent. See Gardner, at 443, and authorities
cited.
C. Vagrancy Laws.
This Court’s unwillingness to take a broad interpretation of Robinson can be seen in its approach to
vagrancy cases in the years following. In Robinson
itself, Justice Clark noted that “ ‘status’ offenses have
long been known and recognized in the criminal law,”
citing a passage of Blackstone discussing vagrancy laws.
370 U. S., at 684. Yet Papachristou v. Jacksonville, 405
U. S. 156 (1972), invoked the void-for-vagueness
doctrine to invalidate a common type of vagrancy law,
even though some of the defendants had been convicted
of what are plainly status crimes: “vagabonds” and
“common thief.” See id., at 158; Gardner, at 443, n. 64.

11

Two years before Robinson, Professor Arthur Sherry
of U. C. Berkeley published an influential law review
article on vagrancy laws. “There is little dissent from
the conclusion that the vagrancy law is archaic in
concept, quaint in phraseology, a symbol of injustice to
many and very largely at variance with prevailing
standards of constitutionality.” Sherry, Vagrants,
Rogues and Vagabonds–Old Concepts in Need of
Revision, 48 Cal. L. Rev. 557, 566 (1960) (cited below as
“Sherry”). The constitutional problem came from a
then-recent decision of the California Supreme Court,
In re Newbern, 53 Cal. 2d 786, 350 P. 2d 116 (1960).
Anticipating both Papachristou and Powell, Newbern
struck down the “common drunk” portion of the
vagrancy statute as unconstitutionally vague while
allowing the prisoner to be retried on the drunk-inpublic charge. Id., at 797, 350 P. 2d, at 123-124.
Sherry believed the solution was simple, at least in
concept. The constitutional problem could be entirely
cured by “drafting legislation having to do with conduct
rather than status,” Sherry, supra, at 567, the view of
the Powell plurality eight years later. Sherry unwisely
asserted the ease of fixing the problem before a legislative subcommittee and was promptly drafted as draftsman. Id., at 568.
Sherry’s second draft of a disorderly conduct law to
replace the antiquated vagrancy law is printed in the
article at pages 569-572. It was adopted with minor
changes by the California Legislature the next year. See
Cal. Stats. 1961, ch. 560, § 2. The final section, the one
relevant to this case, remains largely intact as California Penal Code § 647(e), declaring guilty of disorderly
conduct one “[w]ho lodges in any building, structure,
vehicle, or place, whether public or private, without the
permission of the owner or person entitled to the
possession or in control of it.”

12

Boise City Code § 5-2-3(A)(1), one of the ordinances
at issue in this case, is largely a copy of this law. See
App. to Pet. for Cert. 64a, 123a. The law claimed to be
unconstitutional in this case is actually the reform
drafted and enacted to “harmonize with notions of a
decent, fair and just administration of criminal justice
and ... at the same time make it possible for police
departments to discharge their responsibilities in a
straightforward manner without the evasions and
hypocrisies which so many of our procedural rules force
upon them.” Sherry, supra, at 567.
The petition for certiorari explains why the Court of
Appeals’ decision is bad policy, harmful to our cities and
their people, see Pet. for Cert. 26-35, and we understand that other amicus briefs will expand on that
point. The decision is also contrary to the plain language of the Eighth Amendment, contrary to the
meaning of that amendment as understood at the time
of its adoption, and based on a deviation from constitutional principles that ought not be expanded beyond its
original boundaries. The genuine constitutional problem of the old vagrancy laws was fixed long ago with
carefully considered reforms that provided the basis of
the very laws under attack now. These reasons would
be more than sufficient for this Court to take up this
case for full review. But there are more.
II. The Court of Appeals violated principles of
judicial restraint and federalism by deciding
a constitutional question when state courts
might have applied state law to avoid it.
“Normally this Court ought not to consider the
Constitutionality of a state statute in the absence of a
controlling interpretation of its meaning and effect by
the state courts.” Arizonans for Official English v.

13

Arizona, 520 U. S. 43, 75 (1997) (quoting Poe v. Ullman, 367 U. S. 497, 526 (1961) (Harlan, J., dissenting)
(internal quotation marks and brackets omitted)). This
principle applies full force to this case, yet the Court of
Appeals breezed right past it. Had the question of
necessity at the root of the constitutional dispute been
presented to state appellate courts in the normal course
of proceedings, the federal question might never have
arisen.
A. The Correct Constitutional Question.
To understand the predicate question of state law
and how it should have been resolved, it is first necessary to recognize a clear error in the Court of Appeals’
opinion. The panel’s holding that the Cruel and Unusual Punishments Clause can be violated pretrial is so
clearly erroneous as to be summarily reversible. See
App. to Pet. for Cert. 23a-24a (Smith, J., dissenting
from denial of rehearing en banc); id. 32a-34a (Bennett,
J., dissenting from denial of rehearing en banc).
“ ‘The primary purpose of [the Cruel and Unusual
Punishments Clause] has always been considered, and
properly so, to be directed at the method or kind of
punishment imposed for the violation of criminal
statutes….’ ” Ingraham v. Wright, 430 U. S. 651, 667
(1977) (quoting Powell v. Texas plurality) (emphasis
added; alterations in original). This Court’s pre-Ingraham cases “demonstrate [that] the State does not
acquire the power to punish with which the Eighth
Amendment is concerned until after it has secured a
formal adjudication of guilt in accordance with due
process of law.” Id. at 671-672, n. 40 (emphasis added).6

6. The cases cited and discussed in reaching this conclusion are
United States v. Lovett, 328 U. S. 303, 317-318 (1946), Trop v.
Dulles, 356 U. S. 86 (1958), and Kennedy v. Mendoza-Martinez,

14

The issue before the Ingraham Court did not involve
the distinction between postconviction punishment and
pretrial criminal matters, as the Court of Appeals panel
noted, see App. to Pet. for Cert. 56a, so these statements are obiter dicta. But that does not negate the
principle that Ingraham expressed. Ingraham does not
stand alone. The pretrial versus postconviction distinction is presented in the earlier cases noted in the
opinion and in later cases. Whitley v. Albers, 475 U. S.
312, 319 (1986), invoked the Ingraham footnote 40
“after” language quoted above in an Eighth Amendment case involving use of force against prison inmates.
Graham v. Connor, 490 U. S. 386, 398-399 (1989),
quoted it again for its holding that the Fourth and not
Eighth Amendment applies to a pretrial use of force,
distinguishing Albers. Kingsley v. Hendrickson, 576
U. S. __, 135 S. Ct. 2466, 2475, 192 L. Ed. 2d 416, 428429 (2015), reiterated the Graham distinction, again
citing the Ingraham footnote limiting the Eighth
Amendment to postconviction punishment.
At this point, it is no longer seriously debatable that
the Cruel and Unusual Punishments Clause applies
only to punishment imposed after conviction. To the
extent the Court of Appeals’ opinion is contrary, it is
clear error on the merits. The debatable constitutional
question is whether the Robinson rule extends to a
sentence following a conviction for an act that is the
involuntary product of the defendant’s status.
B. Federalism and Untested State and Local Laws.
This brings us back to the federalism question raised
by Justice Harlan in Poe and the Court in Arizonans for
Official English, quoted supra, at 12. Should a federal
court address the correct constitutional question raised
372 U. S. 144, 162-167, 186, and n. 43 (1963).

15

by this case when the state appellate courts have not
yet had a chance to decide whether state law really does
authorize punishment in these circumstances?
There are two reasons why Idaho law might not
authorize punishment in circumstances creating a
substantial federal constitutional question. First, Idaho
law recognized the necessity defense long before any of
the events at issue in this case. See State v. Hastings,
118 Idaho 854, 801 P. 2d 563 (1990). Second, both of
the challenged ordinances now have exceptions for
nights with no “available overnight shelter.” See App.
to Pet. for Cert. 123a-125a.
In Hastings, an Idaho resident who used medical
marijuana claimed the necessity defense. See 118 Idaho,
at 854-855, 801 P. 2d, at 563-564. The Idaho Supreme
Court found that the defense as it existed at common
law was available in Idaho under a statute incorporating the common law. Id., at 856, 801 P. 2d, at 565.
“The elements of the common law defense of necessity are:
1. A specific threat of immediate harm;
2. The circumstances which necessitate the
illegal act must not have been brought about by
the defendant;
3. The same objective could not have been accomplished by a less offensive alternative available to the actor;
4. The harm caused was not disproportionate to
the harm avoided.” Id., at 855, 801 P. 2d, at 564.
Like many legal doctrines, this one leaves room for
interpretation in individual cases. In State v. Meyer, 161
Idaho 631, 633, 389 P. 3d 176, 178 (2017), the court was
presented with a case of a Washington resident with a
medical marijuana prescription who drove through

16

Idaho on his way to California. The court found that
Meyer had not presented sufficient evidence to satisfy
the third prong, less offensive alternative, because he
might have used another pain medication for the short
duration of his Idaho stay, even if somewhat less
effective. See id., at 635-636, 389 P. 3d, at 180-181.
The California Supreme Court suggested that a
necessity defense might be available in a camping
ordinance case in Tobe v. City of Santa Ana, 9 Cal. 4th
1069, 1088, and n. 8, 892 P. 2d 1145, 1155, and n. 8
(1995).7 Could the Idaho courts apply the necessity
defense to disorderly conduct ordinances like Boise’s to
reach a more finely tailored accommodation of competing interests than the Ninth Circuit’s simplistic, meataxe approach of simply asking whether shelter space is
available?8 We do not know. None of the plaintiffs
appealed their convictions. See App. to Pet. for Cert.
54a. Amicus’s searches have not turned up any relevant
opinions.
Then there is the defense now built into the ordinances themselves. The Court of Appeals opinion takes
issue with how the police are interpreting and applying

7. Notwithstanding footnote 8, it was actually amicus CJLF who
first suggested it. See Brief for Criminal Justice Legal
Foundation as Amicus Curiae in Tobe v. City of Santa Ana, Cal.
Sup. Ct., No. S038530, pp. 26-29, online at http://www.cjlf.org/
briefs/TobeA.pdf.
8. To what extent does a person claiming a necessity to camp in
a public place have a duty to minimize the imposition on other
users of public places? Does a homeless person have any
obligation to take reasonable steps (considering any
impairments he may have) toward correcting the problems that
render him homeless, such as seeking employment if able to
work or seeking treatment if disabled by addiction? The
necessity defense could be developed to address issues such as
these.

17

the defense pretrial. See App. to Pet. for Cert. 46a-49a.
But this is an Eighth Amendment case, and what
matters is how courts decide when and whether the
defendants in criminal cases can be punished for
camping on the sidewalks, as discussed in Part II-A,
supra. The normal course of development of the criminal law is for the police and trial courts to receive
guidance from the appellate courts via appeals in
criminal cases. Yet in this case, the constitutional
question is before a federal court in a civil case when
the predicate state-law question has never been addressed (as far as we can determine) in a single reported
state-court appellate decision.
Idaho provides extensive appellate review in misdemeanor cases. The defendant may appeal a conviction
in the Magistrate Court to the District Court. See Idaho
Crim. Rule 54(a)(1)(A). If affirmed, the defendant has
a second appeal as of right to the Supreme Court, see
Idaho Rule App. 11(c)(10), which may retain the case or
assign it to the Court of Appeals. See Idaho Rule App.
108. If assigned, the decision of the Court of Appeals is
subject to discretionary review in the Supreme Court.
See Idaho Rule App. 118. There is no evident reason
why the platoon of lawyers representing plaintiffs in
this civil case9 could not have taken one or more criminal appeals instead. “[D]uring the first three months of
2015, the Boise Police Department issued over 175 ...
citations” for violating the ordinances at issue. App. to
Pet. for Cert. 49a (panel opinion). There was certainly
no shortage of available cases.
The doctrine of Pullman abstention is named for
Railroad Comm’n of Texas v. Pullman Co., 312 U. S.

9. The PACER docket for the District Court case lists nine
attorneys for the plaintiffs over the course of the litigation.

18

496 (1941). In a nutshell, the decision whether to
abstain turns on four factors:
“(i) resolution of a state law question in a particular
way would avoid the necessity to decide a federal
constitutional question; (ii) the relevant state law
was unclear; (iii) resolution of the federal constitutional question adversely to the defendants might
generate ‘needless friction’ with state policies; and
(iv) ‘the federal constitutional question “touche[d]
a sensitive area of social policy upon which the
federal courts ought not to enter unless no alternative to adjudication is open.” ’ ” R. Fallon, J. Manning, D. Meltzer, & D. Shapiro, The Federal Courts
and the Federal System 1059 (6th ed. 2009).
All four factors favor abstention here. The preceding
discussion establishes that the state law is unclear and
might obviate the federal constitutional question. The
policy issues are discussed in Judge Smith’s dissent,
App. to Pet. for Cert. 15a-23a, and the Petition for
Certiorari at pages 26-35. We understand they will also
be addressed by other amici.
Pullman abstention has its critics, and its usage has
varied over the years, but it is not dead. See, e.g.,
Expressions Hair Design v. Schneiderman, 581 U. S. __,
137 S. Ct. 1144, 1148-1149, 197 L. Ed. 2d 442, 447-448
(2017) (Court of Appeals abstained under Pullman as to
part of case, and petitioner did not seek review of that
part). Very often, certification of a question to the state
courts is preferable, largely to avoid the delay of a full
round of state-court litigation followed by a return to
federal court. See Arizonans for Official English v.
Arizona, 520 U. S., at 75-76; Expressions Hair Design,
137 S. Ct., at 1156-1157, 197 L. Ed. 2d, at 456-457
(Sotomayor, J., concurring in the judgment).

19

Certification works best for discrete questions of law
for which a straightforward answer can be given. The
interpretation of “available overnight shelter” in the
ordinances in this case might be appropriate for a
certified question. See App. to Pet. for Cert. 123a-125a.
Questions involving the application of a broad principle
to varying facts are less appropriate for a certified
question. If, in 1960, a court had certified a question to
this Court asking “in what circumstances is a search or
seizure ‘unreasonable’ for the purpose of the Fourth
Amendment” the Court could not have given an answer
as comprehensive as the body of law on that question
developed in the years to follow. See, e.g., Illinois v.
Gates, 462 U. S. 213, 238-239 (1983) (totality of the
circumstances for probable cause). The circumstances
in which necessity justifies camping on public property
despite the ordinances in this case likely requires factspecific development, and abstention would be better
than certification.
Whether certification or abstention was the proper
course, however, proceeding to the merits of the federal
constitutional question despite the existence of statelaw defenses never interpreted or applied by the state
courts was certainly not proper. It is reversible error.
III. This case provides a much-needed
opportunity to clarify the confusing “narrowest grounds” rule of Marks v. United States.
The panel opinion in this case counted votes among
the concurring and dissenting opinions in Powell v.
Texas, 392 U. S. 514 (1968), to find a principle which
supposedly compels a conclusion in a case of conduct
that is an unavoidable consequence arising from a
condition, App. to Pet. for Cert. 61a-62a, a set of facts
that was not before the Court in Powell. See 392 U. S.,

20

at 549 (White, J., concurring in the judgment). Remarkably, no authority is cited for this mode of interpreting
a precedent of this Court with no majority opinion.
Judge Smith, dissenting from denial of rehearing en
banc, does discuss Marks v. United States, 430 U. S. 188
(1977), and finds it compels the opposite conclusion. See
App. to Pet. for Cert. 9a-11a. Given the confused state
of the Marks rule, though, no one can say if his application of it is correct. Therein lies a serious problem.
The Marks rule, this Court has said more than once,
can be “more easily stated than applied” to some
decisions. Nichols v. United States, 511 U. S. 738, 745746 (1994); Grutter v. Bollinger, 539 U. S. 306, 325
(2003) (quoting Nichols). On both of these occasions,
this Court ducked the Marks question, saying it was not
“useful to pursue the Marks inquiry to the utmost
logical possibility when it has so obviously baffled and
divided the lower courts that have considered it.”
Nichols, at 745-746; Grutter, at 325 (quoting Nichols).
In Hughes v. United States, 584 U. S. __, 138 S. Ct.
1765, 1771-1772, 201 L. Ed. 2d 72, 79-80 (2018), Marks
questions were expressly among those the Court
granted certiorari to decide, and it still ducked them.
Amicus respectfully submits that it is not only
useful for this Court “to pursue the Marks inquiry ...
when it has ... baffled and divided the lower courts,” it
is essential to do so. This Court alone has the option to
simply throw up its hands and decide the issue de novo
whether there is a Supreme Court precedent or not.
Every other court in the Nation faced with a federal
question must determine whether there is a Supreme
Court precedent on point and, if so, follow it. See Cook
v. Moffat, 46 U. S. (5 How.) 295, 308 (1847); Hutto v.
Davis, 454 U. S. 370, 375 (1982) (per curiam).
Providing a uniform rule for other courts to follow
is more than important; it is the principal reason this

21

Court was created in the first place. See J. Story,
Commentaries on the Constitution of the United States
§ 827, pp. 589-590 (abridged ed. 1833) (reprint 1987).
Marks is a meta-rule, a rule for determining what the
rule is. Clearing up the confusion on an issue that arises
so often in so many different areas of law is a matter of
exceptional importance. The fact that such a question
is difficult is not a reason to evade it.
The limited space allowed for petition-stage amicus
briefs does not permit an explanation of our view of the
correct answer here. The essence of the approach is
given in our brief in Grutter v. Bollinger, supra, which
is available at http://www.cjlf.org/program/briefs/
Grutter.pdf. Whether this Court adopts our approach or
another, it needs to adopt one.
CONCLUSION
The petition for writ of certiorari should be granted.
September, 2019
Respectfully submitted,
KENT S. SCHEIDEGGER
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

